OIG Investigative Reports, Boston, MA May 02, 2011 - Quincy Man Jailed for Lying on Student Loan Application
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Carmen M. Ortiz
District of Massachusetts
FOR IMMEDIATE RELEASE
May 02,, 2011
WWW.USDOJ.GOV/USAO/MA
CONTACT: CHRISTINA DiIORIO-STERLING
PHONE: (617) 748-3356
E-MAIL: USAMA.MEDIA@USDOJ.GOV
QUINCY MAN JAILED FOR LYING ON STUDENT LOAN APPLICATION
BOSTON, Mass. - A Quincy man was sentenced today to four months in prison for
having fraudulently obtained federal student loans.
THOMAS N. BYRNES III , 50, of Quincy, was sentenced today by United States
District Judge Nancy Gertner to four months incarceration to be followed by three years
supervised release for falsifying a student loan application.
In June 2008, BYRNES  submitted a promissory note to American Student Assistance
and Wachovia Education Finance in applying for a Federal Stafford Loan. In the promissory
note, which  BYRNES submitted via the Internet, he represented that he was not then in default
on any other student loans, when in fact he had defaulted on multiple student loans taken out in
the 1990s. BYRNES took the 1990s loans out by using his, then four year old, son’s Social
Security Number. As a result of his deception, Wachovia Education Finance issued student loans
and work study monies to Quincy College on his behalf in 2008 totaling $7,396.00.
United States Attorney Carmen M. Ortiz and Brian Hickey, Regional Inspector General
for Investigations, U.S. Department of Education, Office of Inspector General, Region I and II,
made the announcement today. The case was prosecuted by Assistant U.S. Attorney Jonathan
Mitchell of Ortiz’s Economic Crimes Unit.
###
Top
Printable view
Last Modified: 06/03/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov